                                 AUDIT




 DEPARTMENT OF THE INTERIOR’S
 MANAGEMENT OF LAND BOUNDARIES




Report No.: C-IN-MOA-0001-2009   July 2010
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR

                                                                                             JUL 1 6 2010

Memorandum

To:


From:


Subject:       Final Audit Report, "Department of the Interior's Management of Land
               Boundaries" (Audit No. C-IN-MOA-0001-2009)

        This memorandum transmits the results of our audit of the Department's management of
land boundaries. Our audit found that the Bureau of Land Management's Cadastral Survey
program was missing the opportunity to identify and perform surveys on high risk lands where
significant potential revenues could be collected by the Department or Indian tribes. Proper
survey and management of high risk lands with antiquated surveys has the potential to generate
hundreds of millions of dollars in revenue from lands with valuable resources.

       Our report includes nine recommendations related to management of land boundaries.
Based on management' s response to the draft report, we consider:

        •   Recommendations 3, 4, 5, 6, 7, 8, and 9 resolved but not implemented.
        •   Recommendations 1 and 2 unresolved. While management generally agreed with the
            recommendations, additional information is needed before we can consider the
            recommendations resolved. (Pages 9 and 10 of the report describe the additional
            information needed.)

        Please provide us a response to the report within 30 days. The response should provide
information on actions taken or planned to address our findings and recommendations, target
dates and titles of the officials responsible for implementation. Please address your responses to:

               Ms. Kimberly Elmore
               Assistant Inspector General for Audits, Inspections and Evaluations
               U.S. Department of the Interior
               Office of Inspector General
               1849 C Street, NW, MS 4428
               Washington, D.C. 20240




                         Office of Audits, Inspections, and Evaluations   I Washington, DC
                                          EXECUTIVE SUMMARY

The Bureau of Land Management (BLM) Cadastral Survey program has been missing the
opportunity to identify and perform surveys on high risk lands where significant potential
revenues could be collected by the Department or Indian tribes. The Department has outdated
and unreliable survey information on more than 1 million boundary miles. This encompasses
almost 90 percent of the 385 million acres of federal and Indian lands that DOI is responsible for
in the western United States (excluding Alaska). Proper survey and management of high risk
lands with antiquated surveys has the potential to generate hundreds of millions of dollars in
revenue from lands with valuable surface and subsurface resources. This revenue could result
from the collection of fees or royalties from identifying (a) unauthorized uses including rights-
of-way violations and (b) the improper removal of oil, gas, timber, or other resources from
federal or Indian lands. The Cadastral Survey program, however, has not developed an adequate
system to identify high risk lands or attributes in need of survey. Although project prioritization
systems for both the Bureau of Indian Affairs (BIA) and BLM exist, neither system is properly
designed or utilized.

Transactions on lands with unreliable boundary surveys and high value resources were routinely
processed and approved without the benefit of boundary evidence review by Cadastral Survey
personnel. The importance of performing cadastral work 1 on these lands is not adequately
understood by many BLM and BIA personnel. As a result, the Cadastral Survey program is not
being properly utilized. While the cost of some cadastral work can be high, using proper risk
management procedures, less expensive cadastral services, and other procedures can make this
work very cost effective.

BLM estimated the cost to survey and perform the work necessary to modernize all boundary
lands in the billions of dollars. We believe, however, that only a small fraction of antiquated
boundaries will be a high priority for survey once a risk management system is developed and
boundary risks are clearly established. Furthermore, if a portion of revenues recovered could be
retained by BLM, those funds could be used to perform high priority surveys on the highest risk
boundaries.




1
    Cadastral services are those performed to show or record property boundaries, subdivision lines, buildings, and related details.
                                              TABLE OF CONTENTS

Why We Did This Audit ....................................................................................................................1

Background ........................................................................................................................................1

Results of Audit .................................................................................................................................2
   Risk Management ........................................................................................................................2
   Program Coordination..................................................................................................................5
   Automated Systems .....................................................................................................................8
   Promising Practices ......................................................................................................................8

Recommendations ..............................................................................................................................9

Appendix A: Objective, Scope, and Methodology ............................................................................13
Appendix B: Locations Visited..........................................................................................................15
Appendix C: Schedule of Monetary Impacts .....................................................................................16
Appendix D: Status of Recommendations .........................................................................................17
Appendix E: Bureau of Land Management’s Response ....................................................................18
Appendix F: Bureau of Indian Affairs’ Response .............................................................................25
                                    WHY WE DID THIS AUDIT

Information obtained during a previous audit 2 indicated a significant problem with outdated
surveys and unreliable federal land boundaries. As a result, we were concerned about the
potential for significant, uncollected revenues and initiated this audit to review both Bureau of
Land Management (BLM) and other departmental agencies’ management of land boundaries.
(See Appendix A for complete audit scope and methodology. See Appendix B for a list of
locations visited.)


                                               BACKGROUND
Public lands in the U.S. have been surveyed into townships and sections since 1785. Each
township is 6 miles by 6 miles square and subdivided into 1-mile square sections each containing
640 acres. The corners of each township and section are marked by small monuments.
Monuments have evolved from stone markers and
wood posts used prior to 1910, to iron posts with
brass caps used prior to 1973, to the current stainless
steel posts with brass caps. When a survey is
conducted, a master title plat is created showing the
land survey or boundary lines and their relation to the
adjoining official surveys. As more modern official
surveys or resurveys are conducted, land use
information is added to plats including rights-of-way
for utility companies and others, and other land uses
including commercial leases for energy production
and mineral extraction.

The Cadastral Survey program is a core mission of
BLM, responsible for supporting field offices by                 Brass Cap Boundary Monument
supplying clearly defined boundaries and other land
information for the protection and proper management of federal and Indian lands. The program
performs surveys to establish, re-establish, and describe the boundaries of public lands in the
United States. All bureaus and offices are required to coordinate their federal survey needs with
BLM which either performs the requested survey work or oversees the cadastral surveying
activities of others. BLM also administers, and makes all changes to, the Public Land Survey
System which is the official system for storing public land boundary record information.

BLM reports it is responsible for cadastral survey on about 1.3 million miles of federal and
Indian land boundaries on 385 million acres in the western U.S (excluding Alaska). According to
BLM, federal surveys conducted since 1973 have highly reliable boundary data. These total
about 150,000 miles, or only 12 percent, of the federal boundary miles in the west. Estimates for
the remaining miles are:

2
 Department of the Interior, Office of Inspector General, Abandoned Mine Lands in the Department of the Interior (Report No.
C-IN-MOA-0004-2007, Issued July 2008).


                                                                                                                    Page | 1
   •   boundaries with no federal survey, about 300,000 miles (23 percent);

   •   boundaries with poor reliability, about 350,000 miles (27 percent, conducted prior to
       1910), and;

   •   boundaries with fair reliability, about 500,000 miles (38 percent, conducted between
       1910 and 1972).

Needs for cadastral survey vary, but can include establishing accurate boundaries for transfer of
land ownership, resolving ownership or land use disputes, and establishing accurate locations of
proposed roads, pipelines, or utility lines. Conducting surveys requires extensive fieldwork and,
if planned properly, can result in identifying unauthorized, or previously unknown, land uses or
damages.

BLM and the Bureau of Indian Affairs (BIA) have identified thousands of unauthorized use
cases and estimated the number of unknown, unauthorized use cases to be significantly higher
than the number of known cases. Most cases represent obvious and immediately visible
violations such as illegal dumping and occupancy. Some cases, however, are less obvious but
have the potential for recovering millions of dollars in revenue from unauthorized rights-of-way
and/or the unauthorized extraction of oil, gas, or other valuable minerals. Resolving complex
unauthorized use cases can require extensive work and documentation including compiling
evidence, conducting referrals, and seeking resolutions. Processing these cases can cost $100,000
or more.


                                 RESULTS OF AUDIT
BLM and other departmental agencies could improve the management of land boundaries.
Specifically, we found that BLM’s Cadastral Survey program was missing the opportunity to
identify and perform surveys on high risk lands where significant potential revenues could be
collected by the Department and/or Indian tribes. Land transactions with unreliable boundary
surveys and high value resources were routinely processed and approved without the benefit of
boundary evidence review by Cadastral Survey personnel. Further, the Department does not have
a business solution for land managers who face an increasingly complex environment of
complicated transactions, legal challenges, and deteriorating and difficult to access records.
Finally, we identified a promising practice which, if implemented department-wide, could
improve the management of land boundaries.

Risk Management
The Cadastral Survey program was missing the opportunity to identify and perform surveys on
high risk lands where significant potential revenues could be collected by the Department and/or
Indian tribes. The following examples illustrate the potential opportunities that could be realized.

   •   The Yakama Indian Tribe and BLM conducted cadastral survey work which identified
       extensive unauthorized uses by electric, cable, and gas companies. The tribe invested


                                                                                             Page | 2
       about $2 million to develop systems to manage this data and used it to negotiate
       settlements of about $25 million for the tribe. The tribe also negotiated to purchase an
       electric company’s power distribution system enabling them to start a tribally operated
       utility company. The tribe expects to provide lower cost power to all residents on the
       reservation and to employ as many as 100 tribal members.

   •   The Southern Ute Indian Tribe and BLM invested about $2 million for extensive
       cadastral survey work and land management systems development. While the tribe’s
       purpose for conducting the survey was not only to identify unauthorized uses, they
       estimate future, unauthorized use recoveries over 20 to 25 years to be in excess of $100
       million.

   •   The Santa Fe Indian School requested BLM perform a cadastral resurvey to establish
       reliable boundaries after a utility company offered $100,000 for a 20-year renewal and
       expansion of an existing electric transmission line right-of-way. The resurvey
       information was used to negotiate a $4 million, 20-year right-of-way.


          Aerial photo of the Santa
         Fe Indian School. The solid
        yellow line shows school land
         boundaries and the broken
        yellow line shows the location
        of a utility company’s electric
              transmission lines.




As these examples illustrate, proper survey and management of high risk lands with antiquated
surveys has the potential to generate hundreds of millions of dollars in revenue. The Cadastral
Survey program, however, has not developed an adequate system to identify high risk lands and
attributes in need of survey. Although project prioritization systems for both BIA and BLM exist,
neither system is properly designed or utilized. Specifically:


                                                                                           Page | 3
   •   BLM and BIA developed the Cadastral Automated Request System (CARS) for BIA to
       ensure the highest priority survey projects were identified and funded. The system relied
       on tribal and BIA input to assign a numerical score to survey projects based on boundary
       evidence risk. While the system was well intentioned, it lacked adequately defined risk
       attributes. Neither BLM nor BIA provided needed policies and procedures to ensure the
       data provided was consistent, accurate, and supported. We reviewed applications at three
       BIA offices and found little or no support for the data submitted.

   •   BLM began development of an inventory system in response to an Office of Management
       and Budget review. This involved field offices compiling an inventory of survey projects
       they considered high priority. These projects, however, were identified without the
       benefit of adequately defined high risk attributes, and were largely unfunded. BLM has
       funded a project to determine the information needed to identify high risk boundaries.
       The project matches the age (reliability) of official surveys with other boundary risk
       attributes including the land’s status, energy and other resources present, current and
       potential land uses, and urban interface. The project is ongoing and boundary risk maps
       have been provided to BLM state offices. Although an inventory of projects and high risk
       boundaries have been identified, BLM has no formal plans to consolidate this
       information into a risk management system for identifying and prioritizing cadastral
       projects or for funding those projects.

In addition to not performing surveys on high risk lands, the program also did not take the
opportunity to design requested cost reimbursable surveys to identify high risk attributes present.
Because cost reimbursable surveys were funded by other programs, the requested work was
generally narrowly focused. Expanding the design of these cost reimbursable surveys to identify
what high risk attributes should be present, and clearly identifying any additional high risk
attributes while performing the survey, would be a cost efficient way to begin clearly identifying
unauthorized uses.

BLM estimated the cost to survey and perform the work necessary to modernize all federal
and/or Indian land boundaries in the billions of dollars. We believe, however, that only a small
fraction of antiquated boundaries would be high priority for survey once a risk management
system is developed and boundary attributes are clearly established.

If a portion of revenues recovered as a result of survey work could be retained by BLM, the
funds could be used to perform other high priority surveys on lands with the highest risk
boundaries. Such retention to fund future recovery efforts is already used by the Department of
Justice in both its Affirmative Civil Enforcement program and in qui tam cases. For example, the
Affirmative Civil Enforcement program retains 3 percent of all dollars recovered to support
future collection efforts. Performance of targeted high risk surveys by the Cadastral Survey
program would likely result in significant revenue recoveries from identification of high value
unauthorized use and/or environmental damages.




                                                                                            Page | 4
Program Coordination
Land transactions with unreliable boundary surveys and high value resources were routinely
processed and approved without the benefit of boundary evidence review by Cadastral Survey
personnel. This occurred because managers and Lands and Realty staff:

   •   believed cadastral expertise was not necessary to establish adequate boundary evidence.

   •   believed cadastral services cost too much and took too much time when making
       significant land management decisions.

   •   often did not receive adequate training in cadastral services, rights-of-way, and other land
       issues.

   •   did not completely understand the potential benefits of cadastral services.

Services provided by Cadastral Survey are essential for the proper processing of significant land
transactions. Significant transactions processed by Lands and Realty cover a wide variety of
public land uses including processing high value rights-of-way and for congressionally required
land sales, disposals, and acquisitions. Although reviewing the adequacy of boundary evidence
requires cadastral expertise, it can generally be accomplished with a simple review of existing
documentation. Cadastral expertise may not be required for most transactions but is essential for
high value or otherwise significant transactions.

During the audit, many BLM staff made comments demonstrating a lack of understanding or
appreciation of Cadastral Survey’s complex science. The location of original corner monuments,
even when they deviate from the intended location, represent the legal boundary of the property.
Many Land and Realty staff failed to understand that older surveyed land boundaries often do
not correlate closely to the assumed location on maps or precise GPS locations. Actual survey
land boundaries can be located as much as one mile from the location a GPS/GIS or non-survey
map would identify. Some specific statements from BLM staff are as follows:

   •   What you don’t know (about boundary accuracy) won’t hurt you. Let private landowners
       worry about shared boundaries. It’s not BLM’s responsibility to know where the
       boundary is.

   •   We can locate boundaries because we know how to use compass and GPS devices.

The following examples illustrate the value of utilizing cadastral survey personnel to review the
adequacy of boundary evidence on significant land transactions:

   •   BIA’s Fort Hall Agency personnel approved a utility company’s request for a
       right-of-way without review by a cadastral expert. Several years later a cadastral expert
       reviewed maps submitted by the company with its request and found survey errors. This
       subsequent review resulted in negotiations and payments to tribal members exceeding $4
       million.


                                                                                           Page | 5
     •    The BLM Uncompahgre Field Office worked with a neighboring property owner to
          locate and install a cattle guard and a fence. Without a survey, BLM picked the location
          for the cattle guard by backing off the believed property line by approximately 300 feet.
          The neighbor then, in accordance with a verbal agreement, installed the fence in line with
          the cattle guard. The neighboring property owner, when building a house, assumed the
          fence was located on the property line. A subsequent BLM survey revealed the boundary
          actually went through the middle of the house. Because the land was part of Gunnison
          Gorge National Conservation Area, it required an act of Congress to execute a boundary
          modification to resolve the issue.

  “Backed Off” location of the
  cattle guard, fence and BLM
   land boundary sign erected
 without the benefit of a survey.
  The house in the background
 was subsequently constructed,
   on what the new landowner
assumed was their property, but
 which actually trespassed onto
  federal land. A BLM survey
   revealed the boundary went
through the middle of the house.




                                                                                             Page | 6
•    BLM’s Las Vegas Field Office requested a 1-year survey project estimated to cost
     $142,000. State Office Cadastral Survey staff determined that a survey was not needed
     and, subsequently, provided a less expensive product that took less than 2 months to
     complete at a cost of about only $3,000. According to State Office Cadastral Survey
     personnel, cheaper alternatives to a survey are often available if Cadastral Survey’s staff
     is consulted. Often, however, field offices choose to use the services of a non-BLM
     surveyor rather than first consulting with Cadastral Survey about possible alternatives.

•    BLM's Oregon State Office is working with a pipeline company that is proposing the
     construction of a 230-mile, natural gas pipeline in Southwest Oregon. The pipeline would
     cost approximately $900 million to construct and could carry up to 1 billion cubic feet of
     natural gas per day. The proposed pipeline crosses numerous parcels of BLM lands,
     which are intermingled with private lands. The project will require the identification of
     many miles of federal land boundaries to accurately describe the right-of-way
     authorization area. Accurate property line identification is critical for the sale of high
     value timber located on BLM lands and the avoidance of trespass. BLM's Lands and
     Realty program does not have adequate funds for BLM surveyors to perform the required
     surveys and the company has proposed the use of state-licensed and federally certified
     surveyors. The Cadastral Survey staff believed, however, that on a project of this size and
     complexity, agency oversight should be performed. Oversight could require a full-time
     surveyor at a cost of about $100,000 annually until the necessary surveys are completed
     and approved. The cost of BLM survey oversight could be recovered from the pipeline
     company through the BLM cost recovery right-of-way regulations. Cadastral survey
     oversight would help ensure the pipeline's proper location and accurate assessment of
     significant right-of-way rental fees and timber values.



  The proposed pipeline (in red)
    crosses 230 miles of land
including Federal land in Oregon.




                                                                                          Page | 7
During our audit, BLM and BIA staff told us that many BIA realty staff cannot adequately
interpret or prepare key realty documents. For example, some realty staff can not accurately read
or write legal land descriptions. This is a basic, critical function for realty staff. BIA does not
offer standardized lands or realty training which is essential to managing and protecting Indian
lands. Recognizing this need, some BLM employees have provided 1 to 2 day basic land
description courses to BIA and tribal employees. Several BIA realty staff have also met with
staff from the National Indian Programs Training Center to discuss designing a realty course for
BIA staff.

BLM’s National Training Center offers a Beginning Lands and Realty course to its Lands and
Realty employees. The course is offered two times per year, 11 weeks per session. Although the
course is not mandatory, many BLM Lands and Realty employees attend. The course is designed
to educate Lands and Realty staff on a range of topics, including basic training in the laws and
regulations applicable to Lands and Realty. These include Cadastral Survey’s functions and
services, processes for issuing leases and rights-of-way, reading and writing legal land
descriptions, and understanding basic Lands and Realty principles such as describing and
interpreting land status and boundaries.

Automated Systems
The Department does not have a business solution for land managers who face an increasingly
complex environment of complicated transactions, legal challenges, and deteriorating difficult to
access land records. The National Integrated Land System (NILS) was to be such a solution.
Over the past 10 years, BLM spent $27 million attempting to modernize antiquated land
information systems and to bring NILS online. BLM internal reviews identified several contract
irregularities and concluded that NILS was not adequately integrated or automated and,
therefore, did not meet business requirements. (See Appendix C for monetary impact.) In
September 2009, BLM discontinued system development. As a result, we stopped work and
referred the matter to our Office of Investigations.
                                                                 Fiduciary Trust M odel
Promising Practices                                           The Department is responsible for
                                                       establishing and supporting a fiduciary trust
                                                        relationship with Native Americans. These
Cadastral surveying costs vary, but average about
                                                       responsibilities include the improvement and
$6,000 per mile. For many land transactions, low-                        protection of
risk alternative methods of verifying boundaries             56 million acres of land and natural
are sufficient. As part of implementing the               resources in trust. The American Indian
Department’s Fiduciary Trust Model, BLM and            Trust Fund Management Reform Act of 1994
BIA designed and implemented four less costly              directed the Department to reform the
and time-consuming cadastral services                     Indian Fiduciary Trust. The Office of the
                                                         Special Trustee for American Indians was
documented in the Departmental Manual chapter
                                                              created by the Act to oversee and
“Standards for Indian Trust Lands Boundary                         coordinate the reforms.
Evidence.” These services included land
description reviews, certificate of inspection and possession, chain of surveys reviews, and
boundary assurance certifications. These reviews can be completed at substantially less cost than
an Official Survey, thus providing additional resources for boundary management. BLM staff
stated these standards should be available for use by other bureaus in addition to BIA.


                                                                                              Page | 8
                              RECOMMENDATIONS
The Director of BLM should:

   1. Develop and implement a plan to identify, prioritize, and conduct surveys on those lands,
      both federal and Indian, with the highest risk boundaries. This plan should include, at a
      minimum:
         a. the use of standardized, high-risk, boundary attributes such as those identified in
             BLM’s current project on risk identification.
         b. how high value issues identified while performing surveys will be resolved.

              BLM Response:

              BLM concurred with this recommendation and stated: An existing pilot program
              will be broadened to effectively identify lands with high-risk attributes. The
              Cadastral Survey Program will further refine and prioritize surveys that are high
              risk by working with other BLM program staff such as those from the oil and gas,
              right-of-way, and timber programs. The pilot program results will be used to
              establish a BLM-wide approach for prioritization and could serve as a model for
              other federal agencies in the Department.

              OIG Analysis of BLM Response:

              Based on BLM's response, we consider this recommendation unresolved. While
              we believe it was not intentional, BLM’s proposed action does not address two
              aspects of the recommendation: (1) The response does not specifically identify a
              plan for BLM’s pilot project when complete to be implemented for Indian Lands
              and (2) The proposed action does not address part b of the recommendation to
              include in the plan how high value issues identified while performing surveys will
              be resolved. We believe resolution of these issues will require a plan and the
              dedication of resources outside of the Cadastral Survey program. Therefore, we
              consider this recommendation unresolved until both issues are sufficiently
              addressed.

   2. Develop and implement a plan to increase the scope of cost reimbursable cadastral
      surveys to include evaluating significant boundary risk attributes.

              BLM Response:

              BLM concurred with this recommendation and stated: BLM will issue an
              Instruction Memorandum to expand the scope of cost reimbursable cadastral
              surveys to include a provision for evaluating significant boundary risk attributes
              for high valued resources. The Instruction Memorandum will require offices
              evaluate land status features in greater detail during survey planning. Where other



                                                                                          Page | 9
           federal land managers are reluctant to pay for this scope expansion BLM could
           provide assistance to identify potential revenue opportunities.

           OIG Analysis of BLM Response:

           Based on BLM's response, we consider this recommendation unresolved. BLM’s
           proposed action requires clarification on whether BLM will fund the expanded
           scope of surveys with significant boundary risk attributes performed for the
           benefit of BLM programs. While we believe this is BLM’s intent (and is
           necessary to resolve the issue), BLM’s response was not clear on this fact. We
           concur with BLM’s proposed offer of assistance to non BLM federal land
           managers unwilling to fund survey scope expansion. Therefore, we consider this
           recommendation unresolved until the funding for the benefit of BLM programs is
           addressed.

3. Explore with Congress the potential to retain a portion of any revenues recovered as a
   result of surveys performed. If approved, use the additional funding to cover the cost of
   performing self-initiated cadastral surveys on lands with high risk boundaries.

           BLM Response:

           BLM concurred with this recommendation and stated: BLM will pursue
           discussions with the Department’s Office of Congressional and Legislative
           Affairs on drafting and submitting an Administrative Legislative proposal for
           such statutory change to Congress.

           OIG Analysis of BLM Response:

           Based on BLM’s response we consider this recommendation resolved, but not
           implemented.

4. Develop and implement a plan to ensure Cadastral Survey reviews the adequacy of
   boundary evidence prior to the approval of significant land and resource transactions.

           BLM Response:

           BLM concurred with this recommendation and stated: BLM will develop an
           Instruction Memorandum requiring Cadastral Survey program certification of all
           legal descriptions, the adequacy of boundary infrastructure, and the records of
           survey for all high valued land and resource transactions.

           OIG Analysis of BLM Response:

           Based on BLM’s response we consider this recommendation resolved, but not
           implemented.




                                                                                      Page | 10
5. Develop and implement a plan to ensure that project manager's coordinate with Cadastral
   Survey on all significant commercial projects to evaluate boundary risks.

           BLM Response:

           BLM did not concur with our original recommendation and stated: While
           agreeing the Cadastral Survey program should play a more central role with
           respect to significant commercial projects, BLM prefers project managers perform
           oversight, but coordinate with the Cadastral Survey program on all significant
           projects to evaluate boundary risks. To ensure this occurs BLM proposes to
           develop an Instruction Memorandum that will require Cadastral Survey evaluate
           the boundary risks of all significant commercial projects and develop plans to
           mitigate high risk boundary attributes.

           OIG Analysis of BLM Response:

           We concur with BLM's alternate approach and believe it will correct the issue
           identified. Therefore, we revised our draft report recommendation to require that
           project managers coordinate with Cadastral Survey on all significant commercial
           projects. Based on BLM’s response, we consider this recommendation resolved,
           but not implemented.

6. Require that costs for oversight of significant commercial projects be recovered from the
   commercial entities.

           BLM Response:

           BLM concurred with this recommendation and stated: BLM will develop an
           Instruction Memorandum establishing a policy for cost recovery of Cadastral
           Survey services on commercial projects. BLM will utilize existing cost recovery
           authority and pursue additional authority where needed.

           OIG Analysis of BLM Response:

           Based on BLM’s response we consider this recommendation resolved, but not
           implemented.

7. Develop and implement a department-wide cadastral survey outreach program to educate
   end users and promote the range of available services and the potential benefits of those
   services including the opportunities to maximize:
       a. collection of significant revenues from high value unauthorized use;
       b. protection of federal lands from environmental and other damages;
       c. identification of accurate land boundaries management of rights-of-way, land
          withdrawals, land exchanges, and land disposals; and
       d. identification of land features including roads, trails, and hazardous sites.




                                                                                     Page | 11
              BLM Response:

              BLM concurred with this recommendation and stated: BLM will develop an
              outreach program to address the report’s findings. BLM’s response detailed
              specific steps to be included in the outreach program.

              OIG Analysis of BLM Response:

              Based on BLM’s response we consider this recommendation resolved, but not
              implemented.

   8. Expand the procedures for boundary evidence models found in the Departmental Manual
      chapter “Standards for Indian Trust Lands Boundary Evidence” (303 DM 7.9) to include
      conducting less costly boundary resolutions or assurances to all bureaus department-
      wide.

              BLM Response:

              BLM concurred with this recommendation and will consult with appropriate
              officials within the office of the Assistant Secretary of Policy, Management and
              Budget on how to proceed with this recommendation.

              OIG Analysis of BLM Response:

              Based on BLM’s response we consider this recommendation resolved, but not
              implemented.


The Director of BIA should:

   9. Establish an agreement with BLM so that BIA and tribal employees receive comparable
      training to that provided to BLM employees at the National Training Center.

              BIA Response:

              BIA concurred with this recommendation and will work to establish an agreement
              with BLM so that BIA and tribal employees receive comparable training to that
              received by BLM employees at the National Training Center.

              OIG Analysis of BIA Response:

              Based on BIA’s response we consider this recommendation resolved, but not
              implemented.




                                                                                        Page | 12
                                                                                  Appendix A


              OBJECTIVE, SCOPE, AND METHODOLOGY


                                          Objective

The objective of our audit was to review both BLM and other departmental agencies’
management of land boundaries.

                                            Scope

The scope of our audit covered boundary management practices including (a) land surveying and
other boundary verification methods, and (b) realty activities involving land use and ownership.
We conducted fieldwork from May through August 2009.

The initial audit survey included BLM, BIA, the U.S. Fish and Wildlife Service (FWS) and the
National Park Service (NPS). While FWS and NPS had similar percentages of unreliable survey
boundaries, we eliminated them from audit fieldwork in order to focus on BLM and BIA. These
agencies manage the majority of high value rights-of-way and resource leases, both of which are
highly dependent on accurate surveys.

                                         Methodology

To accomplish the audit objective, we:

   •   gathered general, administrative, and background information to provide a working
       knowledge of Cadastral Survey and the Lands and Realty Management Program.

   •   identified and reviewed policies and procedures related to Cadastral Survey and the
       Lands and Realty Management Program.

   •   conducted site visits to interview Cadastral Survey and Lands and Realty personnel about
       the work they performed on land transactions.

   •   visited BLM, BIA, and tribal locations to identify geographic information systems
       developed to discover accurate property boundaries and the benefits derived from these
       efforts.

   •   conducted site visits to evaluate automated systems used to track land boundary
       information.

   •   visited BLM and BIA sites to gather data about processes and systems in place to:
           o identify and track land boundary status.
           o determine when, and what type of, boundary verification work is necessary.
           o establish survey priorities.


                                                                                         Page | 13
                                                                                Appendix A

          o determine the level of surveyor certification and expertise required.
          o identify, track, and resolve cases of unauthorized use which included a review of
            select case files.

We conducted this audit in accordance with generally accepted Government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit’s
objectives. We believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




                                                                                      Page | 14
                                                                    Appendix B


                                    LOCATIONS VISITED

Bureau of Land Management

   Washington Office                             Washington, D.C.
   Arizona State Office                          Phoenix, AZ
       Phoenix District Office                   Phoenix, AZ
       Tucson Field Office                       Tucson, AZ
   California State Office                       Sacramento, CA
       Bakersfield Field Office                  Bakersfield, CA
       Mother Lode Field Office                  Folsom, CA
   Colorado State Office                         Lakewood, CO
       Uncompahgre Field Office                  Montrose, CO
   New Mexico State Office                       Santa Fe, NM
       Farmington Field Office                   Farmington, NM
   Oregon State Office                           Portland, OR
       Prineville District Office                Prineville, OR

Bureau of Indian Affairs

   Washington Office                             Washington, D.C.
   Pacific Regional Office                       Sacramento, CA
        Central California Agency                Sacramento, CA
        Palm Springs Agency                      Palm Springs, CA
   Navajo Regional Office                        Gallup, NM
   Southwest Regional Office                     Albuquerque, NM
        Southern Pueblos Agency                  Albuquerque, NM
   Western Regional Office                       Phoenix, AZ
   Fort Hall Agency                              Fort Hall, ID
   Land Titles and Records Office                Sacramento, CA

Indian Tribes

   Yakama Indian Nation                          Toppenish, WA
   Swinomish Indian Tribal Community             La Conner, WA
   Southern Ute Indian Tribe                     Ignacio, CO
   Agua Caliente Band of Cahuilla Indians        Palm Springs, CA

Training Centers

   BLM National Training Center                  Phoenix, AZ
   National Indian Programs Training Center      Albuquerque, NM




                                                                        Page | 15
                                                         Appendix C


        SCHEDULE OF MONETARY IMPACT


                                           Questioned
                   Issue
                                             Costs

Cost Incurred Attempting to Design and
Implement the National Integrated Land     $27 Million
System (NILS)



                                   TOTAL   $27 Million




                                                             Page | 16
                                                                      Appendix D


                STATUS OF RECOMMENDATIONS

Recommendations                  Status                      Action Required

       1, 2                   Unresolved              Please provide additional
                                                      information on actions taken
                        Management concurred;         or planned.
                      additional information needed


3, 4, 5, 6, 7, 8, 9             Resolved              No further response to OIG is
                            Not Implemented           required for these
                                                      recommendations. We will
                                                      refer these to the Assistant
                                                      Secretary for Policy,
                                                      Management and Budget for
                                                      tracking of implementation.




                                                                            Page | 17
                                                                                                                        Appendix E


[   BUREAU OF LAND MANAGEMENT’S RESPONSE                                                                                                  I
                            Unnit
                            Unit
                               ited
                                  ed Stales
                                     States De
                                            Department
                                            Depa
                                               partm
                                                 rtmeent of t he Interi
                                                                 Interior
                                                                        or
                                          B
                                          l I UREAU OF LAND MANAGEMENT
                                          BUREAU




    "
                                                  Washington. DC 20240
                                                    hllp:::l///l/www.blm.gov
                                                    http


       Replyy Refer:
    In Repl   Refer :                                     APR 02 Z
                                                                 2010
                                                                 2010
                                                                  010
      245 (830)
    1245
    1

    Memorandum

    To;                 Kimberly Elmore
                        Assis tant Inspector General for Audits.
                        Assistant
                        Ass istant                         udits.
                                                         A udit s. Inspections and Evaluations
                                                                                   EVllluaLions

    Through:           Wilma
                       W ilm  A. Lewis
                             aA.Lcwis
                          lmaA.Lewis            Ikr/'h< 7'~l'7' t~11
                                                ~/!Jw.
                                                Ik(/~'    AIII(t~fl",.fl...-"
                       Assistam Secretary - Land and Minerals Management
                       Assistant
                                                                              /~ iI_ I,.. frf<L.-A ~.~
                                                                       ( {~ I/1h...-
                                                                         t"t.                       il/l/#1'v   A ..
                                                                                                    i{//"frf<L.-A


    From::
    From               Raben     AbbY(
                       Robert V. Abbc
                       Roben          cyq
                                     Y('( ,.4.l-....
                                       ' (.)...J-....      c.u..-"
                                                           Ctl-"
                       Director                                        J

    Subject:           Office of inspector  Gcncml
                                 Inspector Gene ral Draft Audit Report,
                                                                 Report. Department ofor lhe
                                                                                      orl  he Interior's
                                                                                          the
                       Management of o f Land Boundarie
                                              Boundariess (A
                                                          (Audit        · 1N
                                                             udit No. C ·I     MOA·0001.2009)
                                                                           N - MQA.0001
                                                                          IN   MOA-0001 . 2009)

     On February 18.                   OHicc of Inspector Gcneml
                         2010, the Office
                     18,2010.          Oflicc                   Gcncml (OIG)
                                                                General    (DIG) is    sued ils draft audit report.
                                                                                     issued
    "Department
     uDcpanmcnt of      lhe  Interior'
                                 cri o( s Management
                        th e lntcrio(
                     orthe   lnt            Mllnagcrncnt of LundLand Boundaries"
                                                                       Boundaries" (Audit No. C- 1N-MOA-   1N-MOA-OOOI- OOOI-
                   report explains the n'suhs
     2009). The Tepon                                 urlhe
                                              resuhs of
                                                      or      DIG'ss aaudit
                                                          the 010'      udi t of
                                                                        udit       thee Depanment's
                                                                              o frth    Department's management
                                                                                        Depanmen(s        man<lgement of
     land boundaries and contains eight recommendations for the Bureau              Bureau of landLand Management
                                                                                                         Man agement
      BLM
      BlM)) and one recommendation for the
    (CBlM                                           thc Bureau of Ind Indian    Allairs ((B
                                                                          ian AITairs         IA ). which thc
                                                                                            B IA).
                                                                                              IA),          thee OIG
                                                                                                            th    OlG believes
                                                                                                                       bdieves
          improve
     will imp       thc efficiency
               rove the  eOicieney ofthc
                                       orthe     program.. As rcqucsted,
                                       o rt he program            requested , the BLM'
                                                                  requesled           BL M'ss responses
                                                                                                rcsponses 10 to the
                                                                                                                 thc findings
                                                                                                                     lindingss
                                                                                                                     finding
    and   rcc
    a nd rec  ommendations
          recommendati
              ommendatioo ns are      sct
                                 arc sel    forth in Attachment
                                      set fonh       Allllchmcnt I. I, and its
                                                                             it s technical comments mentss arc
                                                                                               com ment        rc provided in
                                                                                                            alife
     Altachment 2. Attachment
     Attachment       At tachment I also pr      provides
                                                   ovides aII summary
                                                              su
                                                              summ mary of act action
                                                                                    ionss t3ken      pl anned by the BLM
                                                                                          taken or planned                 lLM
    10  co mpl y with the re
     to comply                 commendatiio ns, including the responsible officials and
                               commendat
                            recommendations.                                                        And
                                                                                                    an                datess of
                                                                                                       d the target date
      mplementation.. In sum. he BlM
     implcmentation
     implementation                        BLM concurs wilh with
                                                            wi    scven
                                                                  sevcn ofthc
                                                               th seven  of the eight      recommendations
                                                                                    eigh t rcc ommendations
    (R  ecommendati onss 1,2
      Rccommendation
        ecommendation        1,2,., ]. 4., 6. 7 and 8).                    concu r with Recommcndlllion
                                                      8) . and docs not concur               Recommendation 5. We
     understand that   the I3IA
                  th!llthe    BiA
                              B1 A wiwillll submit a sepa
                                                      scparrate response til
                                                      scpamte                     thc audi
                                                                             to the    auditt and
                                                                                              and Rec
                                                                                                    Rccommcndutio
                                                                                                         ommendalionn 9.
                                                                                                    Recommendatio

    The Cadastral    Surv
          Ca dastral Survey
                     Su    ey program is a core
                         rvey                 COTe mission of   thee B
                                                            orthe
                                                            orth      BLM
                                                                        lM and p lays an imponanl
                                                                        LM                 important role in
    providing cadastral survcy
                            survey nceds
                                      eed s for all Federal agencies as well
                                      eeds                                 \\cll as serving as aII reposi
                                                                                                   repository tory for
                                                                                                                   ror
    pub lic land
            landss boundary infonnation.
                                infonnation. The O[G O [G notess thai
                                                       IG nOle   th at the I3LM is rerespons
                                                                                       spons ible fo
                                                                                     responsible   forr I ..]] million
    miles of   Fcderal and Indian land boundaries on 385 million aeres
           o f Federal                                                     acres in thc
                                                                                    the western U.S (ex cluding clud ing
    Alaska ) . In addition
    Alaska).
    A[aska         addit ion.. the Cad
                   addilion.           astral
                                   Cadas      SUf\'cy program plays an intcgral
                                         tral Survey                        integral role in It he Slate
                                                                                                   Sta te of Alaska.
    iincluding
      ncluding supporti
                  upponinng the A
                s upponi           Alaska  Landss Conveyance Pr
                                    laska Land                       ogrnm..,
                                                                  P rogram

    In 2009, Ihe  Cadaslral
              the Cadastmi  SUT..-ey program base budgct
                  Cadastral Survcy                    budget for lite the western
                                                                           wcslcrn U.SU. S . (excluding
                                                                                             (cxcluding Alaska) was
                      2010, iI
    $12.9 million. in 2010.  it was ffunded  al $12.5 million
                                      unded at             illion ., and the PrPresident's
                                                                               Preesident"s          budget proposes
                                                                                   sident'S 2011 budgct
    funding al        million, Funhermore.
             at $12.] million.   FurthcmlOre. Ihc
                                 Funhennore.     the
                                                 thc PPresident's
                                                       re sident'ss 20 II budgct
                                                       resident'                        proposcs $22 mill
                                                                              budget proposes           million
                                                                                                        ntill ion for lhe
                                                                                                                  forthe
                                                                                                                  forthc
    Alaska  Landss Conveyance Program,
    Alas ka Land                    ogram. IIa reduction of ofapp     roximatc1 y $13
                                                                approximately
                                                            ofapproximatcly         $ 13   millio n (38 perccnt)
                                                                                       13 million       percent) from
    Ihe
    the FY 2010
    Ihc     20 I 0 budge\.
                   budgct. This wi l l reduce funds for
                   budget.                                  Ihe  Cadastral
                                                            the Cad
                                                       forlhe           astral S ur vey
                                                                 Cadflslra!               program in Alaska.
                                                                                    Vl.'Y progmOl
                                                                                          progrtlnl    Alas ka .
                                                                                                       Alaska




                                                                                                                                  Page | 18
                                                                                                              Appendix E




 In addition to the base budget.
                               budget, the BLM also collects cos cost-recovcry
                                                                      t-recovery dollars for
                                                                 cost-recovery              lor specific projec
                                                                                                         projects.
                                                                                                                 t s.
 Whilc the cost rrecovery
 While                eecovery  fu
                        covcry fund nding
                                fundinging enhances the
                                                    th e BLM'
                                                         BLM'ss ability 10 to conduct
                                                                              conduc t projcct
                                                                                       project specific cadas     tr
                                                                                                          cadastral al
                                                                                                                  tral
   urvey work,
survcy    wo rk. it
                  it is difficult   to usc such funds to ssusmin
                         difficul t 10                     ustain
                                                           us13in oorr expand its profess
                                                                                   profcssional
                                                                                            ional cad
                                                                                                  cadastral    urvcy
                                                                                                      astral ssurvey
                                                                                                               urvey
workforce. Be   Becau
                Because
                    causese the cost recovery dollars rceeived
                                                         received from othe
                                                                          otherr offices.
                                                                                 offices
                                                                                 offices,, burea
                                                                                           bureaus,
                                                                                           bureaus.       programs
                                                                                                 us. and pro
                                                                                                          program
                                                                                                               gramss
         predictable
iiss not predi ctable o r consistent
                            consistent. th ose funds arc
                            consistcnLthose           are not a reliable source for long tenn term planning
                                                                                                   plan ning or forlor
maintaining a viable
                   viablc workforce.
                            wo  rklOrce. At currcnt
                            workforce,        current funding levels. th thee BLM is able 10 to fund 87
employees
em ployees full time,time.

Moreover.
Moreover, as the GIGOIG noted. th   thee BLM
                                         BL:<'1 estimates the cost  to sun;ey
                                                               COSIIO      'c), and perform
                                                                       sun:cy
                                                                       sun.          per/orlll the
                                                                                                the work
necessa ry to modernize 1111all Fede
                                  Fedc ral and
                                             ndll/or Indian land boundaries
                                           a nd                  boundtlTics to be billions of o f dollars. These
funding limitations
          limita
          lim    tions haavc
              itations    ve a direct and s ignificant impact on the BLM
                          vc                                              BLM's  's ability 10
                                                                                            to cond
                                                                                                condu uuct
                                                                                                        ct
cadustral survey work tha
cadastral                 thatt we coconcede                        owever. as
                                         ncede is still needed. Howcver,
                                                                    owever,       explained in more delail
                                                                              as expillined              de tail in
                                                                                                         detail
the allached
    a ttached re sponse. we agree Ihal  that improvements can he  be made 1  00 increase
                                                                            10  in crease efficiency
                                                                                          efficie ncy and havchave
concurred
co ncurred with
            wilh most of or the   OIG's recommendations in this rcgard.
                            th!;! O[O's
                                  O[G's                                regard.

If you hav
       ha vec any
              an y questions or 01' concerns regard ing this
                                             regarding  th is response.
                                                              rcsponse. please cont act Donald Buhler,
                                                                                                  Buhler.
Branch Chief of    Cadd aslml
                ofCa    as tm
                            rall Survey.
                                 Survey, al 202·912-7353. o r LaVanna S tcvenson-
                                         at 202-912-7353,
                                            202-912-7353.                              Harri
                                                                            c vcnson- IH
                                                                                       -larTis.
                                                                                         arri s. BLM Audit
Liaison Offi  cer. al
        Officer.   at 202-912-7077.




                                                                                                                         Page | 19
                                                                                                            Appendix E




                                                                                                  Attac hment
                                                                                                  Atlachment
                                                                                                  Atlat hm t nl 1I

   RcsJlon
   Rts     ~ e 10
   RcsJlonse
       ponst   to Iht Reco mm endat
                  the Reeommendatiuns
                      Re£O           ions indud
                               cndat lons   incl uded
                                            includ  ed in the O rric("... of Ins pector Gtncrall{cport,
                                                              Orriec
                                                                rrie                    General Ke port,
                                                                                        Gencrall{cport,
                                     Interior's
                  Departm ent of the )nt('rior's
                  Department                       MaDllgcmcnt or
                                     )nt(' rlor 's Management      of Land Boundll
                                                                                 Bounda ries
                                                                                 Boundllries
                                   udi t No.
                                (Audit
                                (A udit  Nu. C-   IN-MOA-OOO I-2009)
                                              C-IN-MOA-OOOI
                                                  IN-i\'IOA-OOOI-2009)
                                                                  -2009)

Reco
Recommend
Rctommend      tion 1:
      mmendaation   )I : Devclop :md
                                 and implement a plun
                                                    plan to identify. prioritize. and conduct surveys
                                                    pltln
on targeted lands. both Federal and Indian,
                                     Indian. that hlLve
                                                  have the highest risk boundaries. This phm
                                                                                           plan
should include. at a minimum;
                      minimum:

                        ofstlLlldardized.
            a. the usc of  standardized, high-risk.
                           standardizcd.                         allributes such as those
                                          high-risk, boundary altribUles
                                                                 allribwes          thosc identified in
               IlLM'
               Il       current project
                  LM'ss eUTTent
                        CUTTent  projeet on risk identification:
                                 projcct         identificatiun: and
                                                                 ami
            b. how high value issues identified
                                     identilied while
                                     idenlilied \\hi1e performing
                                                       pcrfomling ssurveys
                                                       pcrfOnlling sun'eys
                                                                    un'eys will be resolved.

      pon
R e.~ p o n sse:
Response:     e : The IlLM
                      BLM concurs
                             concllrs with the recommendation
                                                 recommcndation \0   to identify. prioritize,
                                                                                  priori tize. and conduct
                                                                                  prioritize.      cond uct
sun'eys on the highest risk boundaries. The QIG
surveys                                               O[G found "that the BLM's        Cadastrol Survey
                                                                              BLM' s Cadastral
program was missing Ihe     thc opponunilY
                            the  opportunity to identify and pcrfoml
                                                                perfoml surveys
                                                                          survcys on high
                                                                                       higb risk lands where
significant potential revenues could be collected by the Depanment Dep.1nment and/or Indian tribes:' The
010
OIG is correct that under Ihe    the eurrent progrom . the BLM docs not
                                     current program.                     nOi systcmatically    idcntify
                                                                              systematically identify
                                                                                                identi fy and
                                                                                                          a.nd
initiate surveys
           survcys on high risk lands whe where   significant potential revenues
                                               re signiiicant
                                                  signiticant             revcnues could be collected.
                  Cadastral Survey
Instead, the Cadastrol                          functionss as a sen'ice
                            Survcy program function             service organi7.ation.
                                                                                 .1Iion. responding 10
                                                                         organi7..1Iion,               to survey
                                                                                                           survcy
requests as boundary issues arc identified by BI.M    BLM or other Federal land managers. The survey      survcy
                  undenaken as requests :ITe
requests arc undertaken                     arc received and as funding is provided. Thc    The majority of thcthe
requests 8re
n::quests     are fundcd by the
              nrc funded      thc ollice,
                                  office. agency,
                                  ollice. agency. or program thm that identifies a critical  need.
                                                                                   critical need.

     BLM initiated an internal pilot
The fiLM                                    progrJm that
                                      pilUl program              bl- used to develop
                                                       thai will be           devclop a broader process to
effectively
cffecth'ely identify lands with high risk attributes.
effecth'ely                                      attributcs. The pilot program involves a systematic
effort
cOon by States otlices
eOort               offices to prioritize surveys with these attributes.         Thc Cadastral Survey program
                                                                   allributes. The                      progmm
will work with program staff.stafl'. such as those from the National Landscape Conservation System.    System,
the oil and gas program.
lhe                           rights-of-\\'ay progr.l.!n.
                  program, rights-of-way       progmm, or the timber program to
                                               progr.l.!n,                              funhcr refine and
                                                                                     \0 funher
                                                                                        further
prioritizc surveys that are
prioritize                 arc high risk,
                                      risk. some of which may ma y also involve high revenue
                                                                                        rcvenue potcntial.
                                                                                                  potential. A
high risk boundary is onc one that
                               thaI is on lands containing high valued         resources and likely to be based
                                                                      \'alued resourccs
                                                                               resourecs
on outdatt:d      inaccurate data,
    outdatl'<l or inaceumte
    outdated                                    thosc involving a pre-1910
                               data. such as those                   prc-1910 survey
                                                                     prc.1910    survcy (when a policy was
implemented thatthai required comer markers be iron posts with brass      bra.~s caps) or those that have never
                                                                          bra~s
been surveyed.
      sun'eyed. The IlLM BLM will then U$C  uSt: the results of the pilot program to establish
                                            usc                                         cstablish
                                                                                        establi sh a BLM-widc
                                                                                                     BLM-wide
approach for prioritization.
                prioritization. This could sern:serve 8S
                                                sen'c                           Fcderal agencics
                                                        as a model for other Federal    agencies wi
                                                                                                  within  thc
                                                                                                     thin the
Depanment as they
Department        the y prioritize their requests for surveys.

In addition.
   addition, the BLM will work     with other agencies in the Depanment
                            \\ork wilh                                     to apply the beSt
                                                               Depllnme11lto
                                                               Department                best practices
              303 OM
identified in ]0] DM 7. Standards for Indian Trust Lands and  lind                             Federal
                                                              und Boundary Evidence, to all Fedcral
                  Dcp..1rtmelll. This ponion
lands within the Oep..1rtmem.          portion of the manual outlines fou r processes to evaluate
boundary evidence
           evidenec wi thout the
           evidencc           thc cost ofa complete              survey. These cost-effective
                                            complcte cadastral SUf\'cy.
                                                                 sun'ey.
processcs include land description revicws.
processes                             reviews. physiealland                     of surveys reviews,
                                               physical land inspections. chain ofsun'eys
                                                                                ol'suf\'eys  reviews.
and boundary assurance certifications.
                          certifications. The Cadastral
                                               Cadtlstral Surveyor realty specialist.
                                                                           specialist, as appropriate.
                                                                                          appropriate,
provides certificates as             proccss, For examplc.
                      us part of the process.       example,
                                                    cxample, in the BIA
                                                                     BI A Northwest
                                                                          Nonh west Region.
                                                                                     Region, the I3LM
                                                                                                  I3 LM




                                                                                                                     Page | 20
                                                                                                           Appendix E




is processing
   processin!; over 216 legal description reviews.
                                          rcviews.
                                          reviews. Nationally. the BLM processes over 800
boundary evidence products per year for the BIA.

Target Date: The pilot project has been completed.     agency-wide system will b..:
                                        completed. An agcncy-widc              bo!
implemented 12 months
               mOnlhs from issuance of a final rcport.
                                               report.
                                               rcpon.

Res ponsible Official:
             Offieial: Michael D. Nedd. Assistant Director.
                                                  Dircctor. Mincrals
                                                            Minernls and Rcalty
                                                            Minerals     Realty
                                                                         Really Management

Recommendation 2: Dcvelop
                       Develop andillld implement
                                        implemcnt IIa plan to increase
                                                              increasc the scope of cost reimbursable
cadastral surveys
          SUf\'cys           evaluating
          survcys to include e"aluHtin!;                               allributes.
                             c\,illuatin!; significant boundary risk attributes.
                                                                       IInributes.

Response:
Res ponse: Thc                                   recommendation. The 010
               The BLM concurs with the recommcndation.                   DIG stmes
                                                                                stutes thnt
                                                                                        that the Cadastrel
                                                                                                 Cadastral
Survey program did not take the opportunity
                                      opponunity to desi!;n
                                                          design requested reirnbuTS:lble
                                                                            reimbursable surveys to identify
                                                                            reirnburs:lble
            attributes and that the progr-um
high risk allributes                 program should expand the design of these           surveys. The BLM
                                                                                  thesc survcys.          BlM
will issue an Instruction Memorandum
                             Mcmorandum (1M     (1M)) to expand
                                                         cxp.lnd the scope of cost rcimburs:lblc
                                                                                      reimbu rsable cadastral
                                                                                      reimbursable
surveys to include a provision for evaluming
                                         e\'lIluming
                                         evaluating significam                      attributes for high valued
                                                       significant boundary risk allributes
              After the highest risk boundaries have Ixcn
              Alier
resources. Atler                                            been idemilied
                                                                  identilied and survey projects for
                                                                  idemified                          lor them
have been funded,
             funded. the BLM
                           BlM will seek cost reimbursement for other survey projects where
significant boundary risk allributes
                             att ributes Hre
                             allrihutes    ure idcntified
                                                identified during the project planning sta!;e.
                                                                                           sta!;c. The plan
                                                                                           stage.
wi ll require that oHices
will                offices evaluate land
                    onices             lund st:nus
                                              status                    land ownership. rights-of-way.
                                              sl:nus features such as [and                 righls-of-way,
leases. pcnnitted
leases,  penniued    uses. withdrawals. and the potential
         pennitted uscs,                                        impacts on Ihe
                                                      polential impacls      the resources
                                                                                 n:sourccs in greater detail
during sun'ey
         surve y planning. The Cadastral Sun'ey  Survey program functions
                                                                   functiuns as a service
                                                                                    scrvice organil..ation,
                                                                                             organi,..ation,
                                                                                             orgunil..3lion,
responding 10  to survey requests as boundary
                                       bounda!,) issues arc are identified by DLM
                                                                               Bl M or other Federal land hmd
managers. As a result. a Federal agency requesting and paying for the SUf\'ey
managers.                                                                           survey may be reluctant
                                                                                                      re!uctant to
          the expansion of scope. Ilo\\e\'er.
pay for Ihe                           I lowe\"er. Ihe
                                      Ilo\\ever.    the I3LM
                                                         DLM could provide assistance
                                                         BLM                   assiSlanCe in identifying
opportunities where
                 whcre high valued resources may provide potential revenue opportunities to the
agencies, as described by the OIG.
agencies.                          DIG.

Tan!l"
Target
Tllrgl" Dale
        Date:
        Dille : Six months from
                           rrom issuanccofa
                                issuance of a final
                                              fina! rcport.
                                                    report,
                                                    report.

Rcsponsiblt' Officilll
Responsible  Official;: Michael D.
                                D. Nedd.                     MineTIIls and Realty
                                   Nedd. Assistant Director. Minerals      Rell hy Management

Recommendation
Recommendlltion
Recomme   ndlltion 3: Explore with Congress Ihe   the potential to retain a portion of any revenues
                                                      polentialto                          re\'enucs
recovered as .IIa result of sun'cys
                            surveys pcrlonned.
                                     perfonned. If approved. use the additional funding 10
                                     perlonned.                                           to cover Ihe
                                                                                                   the
                      scll~initiated cadastral suneys on lands wilh
                      sell~initialed
COSt ofperfonning self-initialed                                with high risk boundaries.

Response: The BLM concurs with   \\~th the recommendation.
                                           recommendation. The O[G notes Ihm   Ihal
                                                                               thlll if a portion of the
revenues  a~ a result
re\'enues as   result of survey work could be retained
                                                 retaincd by thc
                                                              the I3LM.
                                                                  BLM. Ihe
                                                                        the
                                                                        thc funds could be used to  10
perfonn other high priority sun'eys.
                              sUT\·eys. The BLM wiltwill pursue discussions with the Department's
                                                                                       Department' s
Office of Congressional and Legislative
                               Lcgislative Affairs
                                            AfTairs
                                            AiTaiJ'S on drafting and submilling
                                                                     submitting an Administflltive
                                                                                     Admi   nistrative
                                                                                     AdminiSlnllive
Legislative
Legislutive Proposal   for such a statutory change to Congrcss.
             Proposullor                                Congress,
                                                        Congress.

Target
Targe! Date: Two months from when the final report
                                            repon is issued.
                                                     issucd.

I{es ponsihle
     pnnsihle Officia
Responsihle   Official:l: Michael D. Nedd. Assistant Dirt."ctor.
                                                     Director.
                                                     DiTL'ClOr, Minerals and Realty Managcment
                                                                                    Management




                                                                                                                     Page | 21
                                                                                                                               Appendix E




R tto mnl
R«o
RtCO  nlnl endalion
      mmt' e ndation.&
             nd a c ion~
                       4:: Develop and implement aII pilln
                                                       plan
                                                       phm to ensure Clldastral
                                                                      Cadastral Sur\,ey TCview
                                                                      Cadaslral Suney
                                                                                Survey  review over the
adequacy of boundary evidence
                           evidcnce prior 110
                                            0 the approval of significant
                                           1('1               significant land
                                                                          lund and rCS(lUrce
                                                                                   resource
transactions.
transactions.

R
Rt.
  e.~[!on
Re.  nn
     rn n se:
          sr: The BlM nLM
                      BLM concurs with Ihe      the recommendation.
                                                     recommcndation. The        Tht! OIG
                                                                                     DIG Slatesslates thlllland
                                                                                                       thutland
                                                                                                       thaI   land transactions
      unreliuble boundary
with unreliable      boundury sun'eys were   \\ere routinely processed and       lind appro\'cd
                                                                                       approved withoulthe
                                                                                                      \\ithoutthe
                                                                                                      \\ithOUI     the benefit of
boundary
boundury evidence I'Cvie\\review b)
                          rcvic\\   by Cadastral SuneySun'ey
                                                      Sun.e)' personnel. The OIG                 states thlll
                                                                                        DIG stlllcs
                                                                                                 stutes  thaI
                                                                                                         th ut Ihis
                                                                                                                this occurs
beclluse manngers
becau$C
becnu$C!   nllma~ers and lands and realty slnrr
           nlllllagers                               staff do nUl
                                                     Sluff      nOI
                                                                nllt understand
                                                                     underswnd the    thc potcntial
                                                                                              potential benefits
                                                                                                          bcnclils of cadastrnl
                                                                                                                         cadastral
                                                                                                                         cadaslnll
surveys. Al     though the fiLM
            Although            BLM
                                BlM makes grelltgrcat                pro]lCrl~ train !lud
                                                        efforts to properly
                                                great effons                                 and infonn its staff.
                                                                                                                 stuff. we
recognize thntthis
recognizc    that this   may be truc
                   thi s mny        true in some inSUlnces.
                                                      insta11ces.   Accordingly. Ihe
                                                                    Accordingl),
                                                      instances. Accordingly,           the IlLM
                                                                                               BLM will
                                                                                                      wi ll dedevelop
                                                                                                                 velop an   I ~'I
                                                                                                                        nn 1M
requiring Cadustral
            Cadaslrul
            Cadastral Sun'ey
                          Survey program
                                     progrdm certification
                                                 ccnification
                                                 certilication of  ofuil
                                                                   ofulllegul
                                                                          legul descriptions.
                                                                      all legal    desc riptions.
                                                                                            riptions, the adequacy
                                                                                                             IIdequaey of
boundW)'
boundar)     in frastructure.
                rrastructure. and Ihc
boundary infrastructure.               the records of sun'c}
                                                           survcy                    vnlued land
                                                                                     valued
                                                           sun'cy for all high valul'<l           hmd and
                                                                                                        Ilnd re!>Ouree
                                                                                                               resource
transactions.
transactions. Some examples of           oftrolllS!lctions
                                            tl".msactions
                                            transactions with \\ ith high ,'aluc..-d   att
                                                                                       allributes
                                                                            valued attributesribuh:s include the  thc boundary
manugcment of sites proposed for rcnc\\able
management                                    rcnewable      energ~ leases
                                              renewable energy         lcaS{'s
                                                                       lcas..·!> imol,
                                                                                 involving
                                                                                 illvol\     ing signilic3m
                                                                                                  signilicant investment and
                                                                                                  siWlilicalll
capital improvemems,
capiml
cupital  improvements. the
         impro\emenlS.         Ihe disposal or of high valued
                                                          \ alucd resources such as timber :lIld         and minerals. and the
management of high resource (but non-market)
manngcmtnt                                     non·market) value treasured landscapes. llilldscllpcs. This policy will    \\;ll
apply to actions      o\'er aII YCI-Io-bc-dctcnnined
           aClions over         yet-to-bC'-detcnninoo dollar threshold or
                                yet-to-bc-detennincd                                Or tIa[J ddincd,
                                                                                             deline<!. nonmarket
                                                                                             defined.   nonmarkct
environmcntal value.
environmental       value_ As noted above.abo\
                                          abo\e. c. the
                                                    thc I1LM
                                                          I3 LM intends to apply the best prncticcs
                                                          I3LM                                        practices described in
303 OM 7. the ··Standards
                    "Standards for Indian ·1        rust Lands 80undary
                                                  Trust             Boundary E\idcncc··to
                                                                                   E,idcnce"to all Federal agencies
                                                                                   E,idencc"to                         age ncies
              Department of
        the I)cpanmcnt
within thc    Dcpanment         oflhe
                                  lhe   [nterior.
                                   Lhc [nlcrior.
                                        Interior.

Tllttel
Tllre.et n ate:: Six months
         Ihte
TMrgel Ihte:         mOnlhs from when the final rcpon
                                                report is issued.
                                                          iSSUL-d.

R I.'~ nnn.\ihie
Res    !lnn ~ ih l e Offiri:al:
Rl'!lllon!lihle      Official:
                     Offici:!l: Michael D. Nedd. AssistllntDircctor.
                                                 Assistant Director.   Minerals
                                                                       Minemls and Realty
                                                           Dirc.:ctor. Mlncrnls    Rcalty Management
                                                                                          Mllnagement
                                                                                          Managcment

Recommend ation 5:: l)c\'elop
Recommendation:;
Recommendation            Devclop
                          Develop and impkmem
                                      implemcnt a plan 10
                                      implement        to ensure
                                                          cnsure that
                                                                 thllt Cadastral Sun'cy has
                                                                       Cadastrnl Sun'ey
ovcrsight of all
oversight    lilt significant             projects,
                  significllnt commercial projects.

Res]lonse:
Res ponse: The 8lM
Rtsilonst':               IlLM
                          BLM does doc'S 1I0t
                                          not concur with           recommendation as
                                                        \\ ith the rccnmmcndntion                 wri nen. The O
                                                                                              IlS written.         DOIGIG asks
                                                                                                                           usks the
                                                                                                                                 thc
I3LM to ensurc
            ensure
            cnsure that thlll Cadastrnl
                        thm   Cadas
                              Cadastral tral Sun
                                             SUI"\'ey
                                             Sun'ey
                                                  ·ey has oversight
                                                            oversi1;ht of all
                                                            oversight         lIll
                                                                              nil significant
                                                                                   si1;nificant eommercinl
                                                                                                   commercial
                                                                                                   commerciul projects. While
thc BLM
the  BlM agrees that      th:lIthe
                               the Cadastral
                                      Cadastr.t[ Sun'ey
                                                   Surve) progmm
                                                             progrnm sshould
                                                             program       hould plllY
                                                                                     playaa more central
                                                                                                      centr"l role in Significant
                                                                                                                          significant
commcrcia[ projects.
commercial          projCCts. we do not believe that Cadastral Cadastrnl
                                                               Cadastr.tl Sun'ey
                                                                             Survcy should assume
                                                                             Sun·ey                 ass ume an oversight role.
    ens uring thatlhe
By ensuring          that the BLM
                               BLM projeci
                                         project 1113nagc
                                         project  managerr coord
                                                              coordinain,Ucs
                                                                      in:nes
                                                                          tes with Cadastral
                                                                                       CadAstml SurveySUn'c), on all significant
commercial projects proj ects to evaluate ooundary
                                                boundary risks_
                                                             risks. we can gam   gain the
                                                                                        tht' bcnclils
                                                                                              benefits of these
                                                                                              bent'fits     tht'sc evaluations
without encumbering the           thc
                                  tht' process
                                       proccss with an additional lu)er    layer of ofo\ersight.
                                                                                       oversight.
                                                                                       0\  crsighl. While Cadastral
                                                                                                                Cadastral Survey
has   e)(pcnisc in the 111nd
hns expertise                 land boundary component :md         and should sen'\! sen'c
                                                                                    seT\'e Ihat
                                                                                            thut  critic"l role.
                                                                                            that critical   rolc. Ihllt
                                                                                                                   th:lI is only one
                                                                                                                   that
aspec
aSpt.'C t of II11a significant
aspect             signi ficant commercial project. ,"or       For that rearon.
                                                                          reason. oversight
                                                                                      ovcrsight should relllain
                                                                                                              remain wi
                                                                                                              rcmain    \\'ilh
                                                                                                                        withth the
OLM
BLM project manager 10                          Ihat the necessary
                                   to ensure that         necessaf) elcments
                                                                        clements of    ufthese
                                                                                           these trnnsaetions
                                                                                                   trnns.'lctions
                                                                                                   transactions arc are coordinutcd
                                                                                                                         coordinated
and completed
      completed......      hile at the same time requiring Ihat
                         \\hile                                      thllt the ClldaSlral
                                                                     thut                        Sun·cy
                                                                                  Cadastral Sun·ey
                                                                                                 SUT\'ey component
                                                                                                          componcllI is a
mandatory pan of
mand3.tory              ofthc
                            the process.       Aceordingl~. the 8LM
                                  process. Accordingly.                I3LM propoS<.~
                                                                                proposc..'S that
                                                                                proposc.'S    thut Rccommendation
                                                                                                    Recommendation
                                                                                                    Recommendution 5 be
modified
modilicd
modiiicd as follows:follows: ····Oe\·elop
                                ····De\'elop and implement a3. plan 10
                                ····De\·elop                                       ~nsure thllt
                                                                               to ensure     that  thc
                                                                                                   the fiLM
                                                                                             thaI Ihc   BLM is required
                                                                                                        I3LM      requin.-d 10 to first
obtain
ohtoin 8a Cada:i'tml
            Cadastral
            Cadastml Sun'c) Survey
                            Survcy evaluation
                                        c\'al uation ofthl"
                                        c\'aluation   of the boundar) risk !lurihuu."s
                                                                                    atlributes
                                                                                    atlribuh:s of all significant commercial
projects:'
projc..'Cts,··
projt.'C.IS:· The IlLM  BlM will dc\
                        BLM            develop
                                            clop an 11MM 10to institute this ne\\ nc\\ polir;)
                                                                                         poliC)
                                                                                         polic) on Cadastral Sun'e} Sun'e),
                                                                                                                    SUn'e)'
in\'olvCfncnt
involvement in commercial                  projects. This
                        commcrcial projccts.           rhis 1M willl\.""quire
                                                                  \\illl"Ctjuire
                                                                  will   require thattha t Cadastrnl
                                                                                           Cadastral Survey
                                                                                                         Sun 'ey
                                                                                                               ey evaluate
                                                                                                                  c\'aluate the
boundary risk allributes
                       attributcs
                       altributes of ofall
                                         all significlln(
                                             significanl
                                             signiiicant commercial
                                                            commercial projects
                                                                             projccls
                                                                             projecis and de\'clop
                                                                                                de\'c!0p
                                                                                                develop plans 10  1to0 mitigate the
risks associated
       associllti..-d wilh
                         \\;Ih any
                                IIny high risk boundal)
                                                   boundary allribules
                                                                attributes,
                                                                altributes.




                                                                                                                                          Page | 22
                                                                                                        Appendix E




Target
Ta rget Date:
        Dat e: Six mon
                   mont
                   months
                       ths from issuancc
                                issuance ora
                                         ofa
                                         of a final
                                              tinal report.

Ress pon
     ponss ihl
Responsible
Re         iblee Offidal:
                 Official:
                 Offici a l: Michael D. Nedd. Assistant Dircctor.
                                     D, Ncdd.                     Mincrals and Rcalty
                                                        Director. Minerals     Realty Management
                                                                                      Managcmcnt

n«ommendation
necommendation 66:: Require thm
Recommendation                tha t costs for oversight
                                              oversight of signifi
                                                           significant
                                                           sig nificant
                                                                   cant eommcrcial
                                                                        commcrcial
                                                                        commercial projects
                                                                                   projccts be
                                                                                            bc
recovered
recove red from the eommcrcial
                    commercial entitie
                               cmities.s.
                               entities.

R
Ruucs pon ~e : The
      ponse:
          st'  Thc BLM
                    BlM concurs with the recommendation.
                                              recommendation. The BLM will develop an 1M      1M to
establish
cstablish the polic
                policyy for cost reeovcry
                                 rccovery of Cadastral
                                 recovery     Cadas tral Survey services
                                                                  se
                                                                  service
                                                                     rvicess in commercial
                                                                                commcreial projects
                                                                                           projects.. This
cos
costt recovery will usc existing regulatory     authority to tthe
                                    re gulatory :!U1hority
                                                :JUlhority     he extent possible or the BLM
                                                                                         BlM will pursue
additionall authority where needed.
additiona
additional                     needed .

T a rget Il
         Ilaa te
              te:: Nine
         n ate:    Ninc
                   Ni ne month
                           onthss from issuance
                         months        issuancc ofa
                                                of a final report.
                                                           rcport.

Rc.~pon s ible
Respon    ibJe Officilll:
               Officilll : Michael D. Nedd. Assistllnt
                                            Assistant Director. Minerals and Realt
                                                                             Realtyy Management
                                                                                     Managcment

Re
Recommendation
   commendatioo n 77:: Develop and implement a Department-wide cadastral
Recommendati                                                                cadastT:!1
                                                                            cadas       survey
                                                                                   tral su rvey outreach
program to educmc
             educate end users and
                               ilnd promote Ihe
                                             the r,mge
                                                  r,mgc or lwailab1c
                                                  range      lIvllilllhlc
                                                             lIvailab1c services
                                                                          se
                                                                          service
                                                                             rvicess and thc
                                                                                          the potcntial
                                                                                              potential
benefits of
         or those services including Ihe
                                      thc
                                      the oppo
                                          opportunities
                                               rtunities t\0o maximi
                                                              maximize: ze:

        a. collection of signilicant
                         signi ficant fCvenues
                                      TCvenues
                                      rc\'enues from high val
                                                          value
                                                              ue unauthorized  u~e:
                                                                 unauthori zed use;
        h.
        b. protection
        b. protcction of Federal lands
                                 hmds from environmentlll
                                           environmental and
                                                          lind
                                                          Ilnd othcr
                                                               other dmnages;
                                                                     dllmages;
                                                                     damages:
                         ofaecurme land boundaries manllgement
           identiticmion ofaccurJte
           idenlificmion
        c. identifiemion ofaccumte                   management of rights-of-way.
                                                                   rights-
                                                                    ights-of-way,
                                                                           of-WilY. land
           withdrawals. land exchanges. and land dispos..1Is:
           withdrawals.                          dispoS<11s: and
        d. identification of
                          orland
                          oflllnd
                             land features           roads,
                                  fcaturcs including roads.  trails.
                                                     rollds. trail s. and hazardous ssites.
                                                                                      itites.
                                                                                          es.

Res
R es ponse:
     ponsse: The OLM
     pon         I3LM
                 BLM concu
                      concurs
                           rs with this fCeommendation
                                        recommendation..

'"Inc
  Ine BLM
       BlM will develop
                  de velop and implement
                                implcment an Olllreaeh
                                               outreach program to add
                                               Olllreach               address
                                                                            ress the findings ofoftnis
                                                                                                ofthi5
                                                                                                   this report.
                                                                                                        report.
The outreach
      outrcach program will include 001 0DOlmccting
                                          0 1 meetingss and functions
                                                              function s conceming
                                                                         coneeming Cadastral Survey. A
diseussion
discussion ofoflhe
                the new
                      ncw boundary standard
                                    st andard products. new policies. enhancement
                                                                          enhance
                                                                          cnhancement
                                                                                   ment ofoftmining
                                                                                             training
curriculums. publiclltion
               publication on websites     ofbc~ t practices,
                                 wehsites ofbcst   practices.
                                                   practice s. lessons leamed.
                                                                       learned. fact
                                                                                 faci ssheets,
                                                                                        heets. and
                                                                                               nod
 pprescntations
   resentations at  IlLM
                    BLM'·ss State Onice
                Ilt OlM'          Office conferences
                                          conferenccs and workshops will  wiJ1 be pan
                                                                                  part of the outreach.

The OIG stated thm the thc IlLM
                            BLM and the IlI
                            DlM            BIA
                                           BlA   sUlff would benefit from additional training.
                                             A staff                                   trainiing. The
                                                                                       train      Thc
BlM's
BLM's llInd
BLM·s    La
          Land
            nd Academy provides basic training on cadastral       surveying,
                                                         cadastml survey
                                                                  survcying.
                                                                          ing, legal descriptions. and
land status. The B BLM
                    lLM has offer   ed to assist the
                               offered            thc I3lA
                                                      BIA in the development
                                                                 dC\'e!opment of similar training alt  al the
                                                                                                       at th
                                                                                                           he
BIA training center
               centcr in Albuquerque. The BLM   BlM provides legal description
                                                                      descr iption review at the
                                                                                              the B
                                                                                                  il IIA
                                                                                                       A
realty
realt y conferences
        confercnccs on ana n as-needed basis
                                        basis.
                                        basis.. lbe
                                                The I3LM
                                                      BLM hilS
                                                           has also
                                                               nlso de\elopcd
                                                                    dc\
                                                                    developed
                                                                        ·clopcd the Certified F Federal
                                                                                                 ederal
Surveyor tmining
           training modules for the professional
                                       professional surveyor who is working on or adjacent to
Federal and IIndian
               ndian lands.

Tare ..! nate:: Twelve months fr
Tareel
Tareetl>atf"                  rrom
                                 om issuance of a final report.




                                                                                                                  Page | 23
                                                                                                           Appendix E




Res ponsible
Res ponss i bl e Offi
    pon          Offic
                 O       ia ll:: Michael D
                   ffi ccia              D.. N
                                             Nedd,
                                              edd, A ssistant Director
                                                   Assistant  Director., M inerals and Realty Management
                                                                         Minerals

R eco mm en
Recomm      d atio
              a tio n 8
          endatio     8:: Expand
                          Ex pand the procedure
                                        proceduress for boundary evidence model
                                                                             modelss found in the
Departmen tal Manual "Standards
Departmental              "Standard
                            Standardss for Indian Tru
                                                   Trustst Land
                                                           Landss Boundar
                                                                  Boundaryy Ev
                                                                            Evidence"
                                                                               idence" (303 OMDM 7[sicJ)
to include conducting lessle ss costly boundary resol
                                                 re sol ution
                                                    soluti ons or assurances to all bureau
                                                        utions                      bureauss Department-
wide.

Res ponse:
Res  p o n se: The BLM concurs
                          concurs with
                                    w ith this
                                           thi s rec ommendation.. As explained above
                                                 recommendation                         above,, the BLM
                              processses se
reco gni zes the value in the processes
recognizes                    proce         sett forth in 303 OM DM 7 and ssupports
                                                                                upports the expansion of the
            other Federal
sco pe to other
scope             Federal agencies in the
                                        th e Department of the Int    Interior
                                                                         erior,, as appropriate.
                                                                      Interior,     appropriate. The BLM w wii ll
consult with                oftlcials
          wi th appropriate officia ls within tthehe office of the Assistant
                                                                      Assistan t Secretary of Policy
                                                                                               Policy,,
Management and Budget on how 10        to proceed withwit h this
                                                            th is re co mmendation.
                                                                  recommendation.
                                                                        mmendat ion.

T argeet Dat
Targ
Target       e: Three month
         Date:        monthss from issuance of a final
                                                 final report.
                                                       report.

Ress p o n s ibl e Offici
Responsible
Re                 Officiaa ll:: Michael D   Nedd.
                                         D.. Ne               Director.
                                                dd, Assistant Director. Minerals             Managementt
                                                                        Mineral s and Realty Managemen




                                                                                                                    Page | 24
                                                                                                                        Appendix F


      BUREAU OF INDIAN AFFAIRS’ RESPONSE



 ·.'..
., ''''''''''~
 D
          '~"    ''''~


 D
 •

" """;
      .

 I'" uny
 1JoIlUt.
         "'


             ""
                A

  .....~Io1' ,;."
          Y l£ru
                     •

                     '


            IlU'EA 10-
                                United States Department of the Interior
                                                         I DIAN AFFAlRS
                                              BUREA U OF INDIAN
                                                     Washinglon,
                                                                AFFAIRS
                                                     Wash inglon. D.C. 20240




                                                    MAY 0 3 2011
                                                            ZOll


      Memorandul11
      Memorandum

      To:                Kimberly Elmore
                         As iSlam Ins
                         Assistant Inspector
                                      pectorr General for Audi
                                   Inspecto                    ts. Inspections and Evalualion
                                                          Audits.                  Evulualions
                                                                                   Evaluatio nss

      Through:l"t.rr)
      Through:f"t.rr)                Ilaw'fJ{Le~~ f
                            lIaw.f jJ ,rtf
      Through:f"t.rry Echo lIaw,      ,fLf         ~
                                                  f!/-'
                Assistant Secretar)
                          Secretary - Ind ian Afl'airs
                                       Indian AfTairs
                                              Affairs

      From:          Michael Black        --/~' 5
                                          --/~.
                                          -/u"  :=5
                                                :=:::>
              Actin&
              Actin
              Acting Din.~lOr.
                    gD
                     Dircclor.            Indl:lI/ Aff'l'irs
                       ircclor. Bureau of lndia.l
                                          Indla.l  Aff:l'irs
                                                   Affairs

      Subject:
      Subject:           Office ofln  specto r Gcneml
                                of In spcclor                              Depanment orlhe
                                               General Draft Audit Report. Department of the Interior's
                         Management of     land  Bo undaries (Audit No.
                                           Land Boundaries
                                        orland                       o. C-IN-MOA-OOOI-2009)
                                                                        C- IN-MOA-OOOI-2009)

      Thiss responds 1
      Thi              100 the memorandum dated Fcbnl8ry         18. 20 IO. from the OJlicc
                                                       Fcbruar) 18.2010.             Office of Inspector
               (D IG ) draft audi
      General (DIG)            auditt report.   Dcpanmem orthe Interior'
                                      re port . Dcpnrtment        Interior'ss Management of Land Boundaries
                                                                  Interior"s
              No.
      (Audit No.o. C- IN-MOA-OOO
                      IN-MOA-OOOl-2009). I-2009). The report contains
                                         1-2009).            comains one recommendation for the OUTeau
                                                                                                     Bureau of
              AfTairs (BIA)
      Indian Affairs   (B IA) and eight
                                     l'jght recommendations forror the Bureau ooff Land Management (13LM).
                                                                                                     (BLM).

      The BJA
            BIA concurs with       recommcndation 9. Ill!!
                           \l,ith recommendation            nli;~ I3IA
                                                            rhe   BJA will \\ork
                                                                  BIA                          ish an agreement with
                                                                             \\ ork to establish
                                                                                       establ
                                                                                       establish:tn
      BLM so that 131...-\
      13LM           BlA and tribal
                     BIA                                r~ceive
                                                        r~ccive
                                  triba l employees recei\     e comparable train ing 1    0 that provided 10
                                                                                          10                  to BLM
      employees      tile Nati
      cmplo)'ces at the          onal 'J
                             ational1
                             ational   Training
                                          raining Center. We anticipate a target dale   date or
                                                                                              oofOeccmbC'r
                                                                                                 r December 31 31.. 20 10. to
                                                                                                                    2010.
      \\.ork wi th BLM to develop and eSL
      v"ork
      \\ork                                      Hbli
                                              estu bli sh the agrecment.
                                              establish       agreement. The responsiblt:
                                                                                   responsiiblt:
                                                                                   respons   ble oflicial
                                                                                                  official for
                                                                                                           ror this
                                                                                                               th is elTon
                                                                                                                     etTon
      is Vick i Forrest. Deputy Bureau Director. Trust     rrust Se
                                                                  Serv
                                                                     rvices.
                                                                       ices. Bureau of
                                                                  Services.            oflndiall
                                                                                           Indian Affairs.
                                                                                       orlndian     AtTairs.

      If you have
             havc an)
                  any questions or concerns regarding
                                            regard ing this response. please contact
                                                                             colllacl
                                                                             co ntact Vicki Forrest at
      (202) 208-5831
            208-583 1..




                                                                                                                                Page | 25
      Report Fraud, Waste,
      and Mismanagement
               Fraud, waste, and mismanagement in
            government concern everyone: Office of
              Inspector General staff, Departmental
             employees, and the general public. We
           actively solicit allegations of any inefficient
                and wasteful practices, fraud, and
           mismanagement related to Departmental or
           Insular Area programs and operations. You
           can report allegations to us in several ways.




By Mail:            U.S. Department of the Interior
                    Office of Inspector General
                    Mail Stop 4428 MIB
                    1849 C Street, NW
                    Washington, D.C. 20240



By Phone:            24-Hour Toll Free                       800-424-5081
                     Washington Metro Area                   703-487-5435


By Fax:              703-487-5402


By Internet:         www.doioig.gov
